No. 19-975
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CENTER FOR BIOLOGICAL DIVERSITY, ET AL.,
PETITIONERS
v.
CHAD WOLF, ACTING SECRETARY OF HOMELAND SECURITY, ET AL
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via first-class mail, postage
prepaid, this 21st day of May 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8217 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 21, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 21, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0975
CENTER FOR BIOLOGICAL DIVERSITY, ET AL.
CHAD WOLF, ACTING SEC. OF HOMELAND
SECURITY, ET AL.

MATTHEW R. ARNOLD
EUBANKS & ASSOCIATES, LLC
1509 16TH ST. NW
WASHINGTON, DC 20036
843-718-4513
MATT@EUBANKSLEGAL.COM
ANTHONY T. ELISEUSON
ANIMAL LEGAL DEFENSE FUND
150 SOUTH WACKER DRIVE
SUITE 2400
CHICAGO, IL 60606
WILLIAM S. EUBANKS
EUBANKS & ASSOCIATES, LLC
2601 S. LEMAY AVENUE
UNIT 7-240
FORT COLLINS, CO 80525
970-703-6060
BILL@EUBANKSLEGAL.COM
KATHERINE A. MEYER
HARVARD LAW SCHOOL ANIMAL LAW &
POLICY PROGRAM
1585 MASSACHUSETTS AVENUE
CAMBRIDGE, MA 02138
KMEYER@LAW.HARVARD.EDU

EFREN C. OLIVARES
TEXAS CIVIL RIGHTS PROJECT
PO BOX 219
ALAMO, TX 78516
956-787-8171
EFREN@TEXASCIVILRIGHTSPROJECT.ORG
DOANDL T. REHKOPF
REHKOPF LAW OFFICE
31 E. MAIN STREET
2ND FLOOR
ROCHESTER, NY 14614
585-434-0232
USMILITRYLAW@GMAIL.COM
JASON C. RYLANDER
DEFENDERS OF WILDLIFE
1130 17TH ST., N.W.
WASHINGTON, DC 20036
202-682-9400
DEBORAH A. SIVAS
MILLS LEGAL CLINIC AT STANFORD LAW
CLINIC
CROWN QUADRANGLE
559 NATHAN ABBOTT WAY
STANFORD, CA 94305-8610
650-723-0325
DSIVAS@STANFORD.EDU
A. JEAN SU
CENTER FOR BIOLOGICAL DIVERSITY
1411 K STREET NW
SUITE 1300
WASHINGTON, DC 20005
202-849-8399
JSU@BIOLOGICALDIVERSITY.ORG

